                                                               Issue Date
                                                                    March 29, 2012
                                                               Audit Report Number
                                                                     2012-AT-1008




TO:        Gary Causey, Director, HUD Jacksonville Office of Community Planning and
            Development, 4HD

           Dane Narode, Associate General Counsel for Program Enforcement, CACC
           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: The City of Orlando Had Inadequate Controls Over Commitments Entered Into
          HUD’s Information System and Charges for a Terminated Activity



                                  HIGHLIGHTS

 What We Audited and Why

             We audited the City of Orlando’s HOME Investment Partnerships Program
             because it had more than $1 million that it needed to commit approximately 1
             month before its deadline compliance date. Our objective was to determine
             whether the City accurately entered commitments and project completion data
             into the U.S. Department of Housing and Urban Development’s (HUD) Integrated
             Disbursement and Information System for HOME-funded activities.

 What We Found


            The City entered more than $706,900 for invalid ($407,000) and inadequately
            supported ($299,900) commitments into the information system, and it charged the
            HOME program more than $18,200 for ineligible costs for a terminated activity.
            These conditions occurred because the City’s HOME program managers had not
          established and implemented adequate controls and procedures and because they
          disregarded HUD requirements which they should have known that prohibit
          charges to the HOME program for terminated activities. The invalid commitments
          concealed a commitment shortfall of more than $407,000 that is subject to
          recapture by HUD. The invalid and inadequately supported commitments
          undermined the integrity of the information system and jeopardized the accuracy
          and support of reports that HUD generates from the system to monitor the City’s
          compliance with the 24-month statutory commitment requirement and to compile
          national program statistics.

          The City entered accurate completion data into the information system.

What We Recommend

           We recommend that the Director of HUD’s Jacksonville Office of Community
           Planning and Development require the City to (1) reduce commitments in the
           information system to the amounts supported by written agreements, (2) recapture
           $407,006 in HOME funds that was not supported by valid commitments, (3)
           require the City to reimburse the program $18,248 spent for a terminated activity,
           (4) implement controls to ensure compliance with commitment requirements, and
           (5) ensure that its managers and staff are properly trained concerning the validity
           and support for commitments entered into the information system. We
           recommend that the Associate General Counsel for Program Enforcement pursue
           civil or other appropriate administrative action against the City for the invalid and
           inadequately supported commitment entries which its staff made to the
           information system.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We discussed the finding with City and HUD officials during the audit. On
           February 27, 2012, we provided a copy of the draft report to City officials for
           their comment and discussed the report with them at the exit conference on March
           8, 2012. The City provided its written comments to the draft report on March 20,
           2012. The City generally agreed with the finding.

           The complete text of the City’s response, along with our evaluation of that
           response, can be found in appendix A of this report.




                                             2
                            TABLE OF CONTENTS


Background and Objective                                                          4

Results of Audit
       Finding: The City Had Inadequate Controls Over Commitments Entered Into    5
       HUD’s Information System and Charges for a Terminated Activity

Scope and Methodology                                                            10

Internal Controls                                                                12

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use             13
   B. Auditee Comments and OIG’s Evaluation                                      14




                                            3
                      BACKGROUND AND OBJECTIVE

The HOME Investment Partnerships Program was created by Title II of the Cranston-Gonzalez
National Affordable Housing Act of 1990. Under the HOME program, the U.S. Department of
Housing and Urban Development (HUD) allocates funding to eligible local and State
governments to strengthen public-private partnerships and supply decent, safe, and sanitary
affordable housing to very low-income families. Participating jurisdictions may use HOME
funds to carry out multiyear housing strategies through acquisition, rehabilitation, new
construction, and tenant-based rental assistance. For program years 2008 through 2010, HUD
awarded the City of Orlando, FL, more than $4.1 million in HOME funding. The City has a
seven-member city council comprised of the mayor (elected at large) and six district
commissioners. The Chief Administrative Office is comprised of seven departments, including
the Office of Housing and Community Development, which administers the City’s HUD-funded
HOME program.

HUD requires grantees to enter HOME commitments into its Integrated Disbursement and
Information System. HUD uses the information system to monitor compliance with HOME
requirements for committing funds. It also uses the information system to generate reports used
within and outside HUD, including the public, participating jurisdictions, and Congress.

HUD’s Office of Community Planning and Development in Jacksonville, FL, is responsible for
overseeing the City’s HOME program. However, HUD had not monitored the City’s HOME
program during the period covered by the review, November 1, 2009, through October 31, 2011,
because the City had low scores on HUD’s risk analysis from the Grant Management Process
System which it used to determine which participation jurisdictions to select for on-site
monitoring.

Our objective was to determine whether the City accurately entered commitments and project
completion data into the information system for HOME-funded activities.




                                               4
                               RESULTS OF AUDIT

Finding: The City Had Inadequate Controls Over Commitments Entered
Into HUD’s Information System and Charges for a Terminated Activity
The City entered invalid and inadequately supported commitments into the information system
and charged the HOME program ineligible costs for an activity that had been terminated. These
conditions occurred because the City’s HOME program managers had not established and
implemented controls and procedures for commitments entered into the information system and
terminated activity requirements which they should have known. The City’s inadequate
management and staff training resulted in invalid commitments that concealed a commitment
shortfall of more than $407,000, which is subject to recapture by HUD, and more than $299,900
in commitment entries that were not properly supported when they were entered into the
information system. The invalid and inadequately supported commitments undermined the
integrity of the information system and jeopardized the accuracy and support of reports that
HUD generates from the system to monitor the City’s compliance with the 24-month statutory
commitment requirement and to compile national program statistics. The terminated activity
resulted in the City’s charging more than $18,000 in ineligible costs to its HOME program.



 Questionable Commitments and
 Expenditures


          The City made more than $725,100 in questionable commitments and expenditures in
          the operation of its HOME program. We examined 21 activities with commitments
          that totaled more than $1.4 million, or 61 percent of the commitments made during
          the 24-month commitment period that ended on October 31, 2011. We identified
          problems with more than $706,000, or 48 percent of the commitment dollar amounts.
          We also inspected 23 completed and open activities to determine whether the City
          entered accurate completion information into the information system. We identified
          one terminated activity in which the City charged the program more than $18,000
          which was not eligible for HOME funding. The questionable commitments and
          expenditures consisted of more than

                   $407,000 for invalid commitments,
                   $299,900 for inadequately supported commitments, and
                   $18,200 for ineligible costs for a terminated activity.

          The above conditions occurred because the City’s HOME program managers had not
          established and implemented controls and procedures for commitment requirements
          that they should have known. In addition, management did not ensure that the
          employees who were responsible for entering commitments into the system had

                                              5
             proper training and understanding to ensure that the signatures on the written
             agreements were dated, agreements were executed before the commitment deadline,
             and commitments were made only for eligible and properly supported activities.
             Also, City managers did not take necessary steps to ensure that the cost for a
             terminated activity was removed from the HOME program.

    Invalid Commitments


             The City entered 12 commitments totaling more than $407,000 into the information
             system, which were invalid because they were not supported by properly executed
             written agreements or did not otherwise meet the requirements for a legitimate
             commitment. The invalid commitments concealed a $407,0001 commitment shortfall
             that is subject to recapture by HUD. Regulations at 24 CFR (Code of Federal
             Regulations) 92.2(1) require commitments to be supported by legally binding
             executed agreements. Title II of the Cranston-Gonzalez National Affordable Housing
             Act, section 218(g), provides that a participating jurisdiction’s right to draw funds
             from its HOME Investment Trust Fund shall expire if the funds are not placed under
             binding commitment to affordable housing within 24 months after the last day of the
             month in which such funds are deposited into the participating jurisdiction’s HOME
             Investment Trust Fund.

                                                   October 31, 2011       OIG**           October 31, 2011
                                                      deadline *        adjustments      deadline - per OIG
                     Recorded commitments             $ 21,826,006       $ (407,006)        $ 21,419,000
                     Required commitments              21,857,989             0               21,857,989
                    Shortfall                     $ ( 31,983)      $ (407,006)        $ (438,989)
                 *These were the amounts shown in HUD’s deadline compliance status report.
                 **Office of Inspector General

             The more than $407,000 in invalid commitment entries consisted of

                       $181,599 in indirect costs for activities 1604 ($146,675) and 1605 ($34,924),
                       which the City could not support as legitimate and eligible HOME activities.
                       The commitments were not supported by written agreements. The City later
                       cancelled the activities and used its general fund to pay for the indirect
                       expenses.

                       $105,000 for five rehabilitation activities (1618, 1623, 1625, 1626, and 1627)
                       for which the City did not have executed written agreements by the deadline
                       date or at the time of our review. The homeowners had signed each of the
                       agreements, but they were not signed by the City. Thus, they were not
                       legitimate commitments. Four of the activities were committed on the day of

1
 This amount does not include a $31,983 shortfall already identified in the deadline compliance status and which
HUD has recaptured.

                                                         6
               the 24-month commitment deadline, and one was committed 3 days before
               the deadline date.

               $90,000 for activities 1622 and 1624 for which the City executed written
               agreements after the 24-month commitment deadline. The written
               agreements were missing signature dates. The City provided supplemental
               documentation, which showed that the city attorney did not receive the
               agreements for final signature until after the 24-month deadline. We
               recognize that the City had authorization to execute the written agreements
               before the deadline date, but it did not execute them until 39 days after the
               deadline.

               $30,407 for three downpayment assistance activities, which duplicated
               commitments already in the system. City officials stated that the duplicate
               entries were the result of oversight.

                                                                 Initial        Duplicate
                                    Activity   Commitment     commitment      commitment
                   Home buyer       number         date         allowed        not allowed
                    Buyer A          1509       10/12/2010      $10,407
                    Buyer A          1567       02/02/2011                      $10,407
                    Buyer B          1467       10/29/2009       20,000
                    Buyer B          1600       08/12/2011                       11,264
                    Buyer B          1601       08/12/2011                        8,736
                       Total                                                    $ 30,407



Inadequately Supported
Commitments

           The City did not require that the signatures of all parties who signed the written
           agreements be dated to support when it committed more than $299,900 for seven
           activities. Without the dates, we could not determine whether the agreements were
           executed before or after the City’s October 31, 2011, 24-month statutory
           commitment deadline. Community Planning and Development Notice 07-06,
           section VII(B), provides that the signatures of all parties signing the agreement or
           contract must be dated to show the execution date. Regulations at 24 CFR 92.2
           define commitment as an executed, legally binding agreement to use a specific
           amount of HOME funds to produce affordable housing or provide tenant-based
           rental assistance.

           The City provided supplemental documentation to support that the agreements were
           executed before its October 31, 2011, deadline date. We provided and discussed the
           documents with HUD’s Jacksonville Office of Community Planning and
           Development officials. The Director stated that HUD would accept the
           documentation as support that the written agreements were executed before the 24-

                                               7
             month commitment deadline for the seven activities. However, the supplemental
             documentation is not a substitute for compliance with requirements, which the City
             did not follow.

Ineligible Activity Due to
Termination

             We conducted a drive by inspection of 19 activities that were classified as
             complete in the information system and four activities that were still in progress
             to determine whether they were complete or adequately progressing toward
             completion. We identified only one exception related to activity number 984,
             which was terminated before completion, but the City had not cancelled the
             activity in the information system. The activity was funded in October 2004 as a
             new construction project, but the lot was vacant. City officials stated that the
             construction was terminated due to land restraints. The City had drawn $18,248
             in HOME funds for predevelopment expenses, which were recorded in the general
             ledger as HOME program costs. The costs were not eligible because the activity
             was terminated. Regulations at 24 CFR 92.205(e) provide that a HOME-assisted
             project that is terminated before completion, either voluntarily or otherwise,
             constitutes an ineligible activity.


Conclusion

             The City consistently did not enter valid commitments into the information
             system and did not enter the signature dates on written agreements to support
             when the agreements were executed. We examined 21 commitment entries and
             determined that 12 were invalid, 7 were not properly supported, and only 2 were
             valid and properly supported. The invalid and inadequately supported
             commitment entries undermined the integrity of the information system and
             jeopardized the accuracy and support of reports that HUD generates from the
             system to monitor the City’s compliance with the 24-month statutory commitment
             requirement and to compile national program statistics. The City also spent
             $18,248 in HOME funds that was not eligible because the activity was terminated.
             These conditions occurred because the City’s HOME program managers had not
             established and implemented controls and procedures for commitments entered
             into the information system and terminated activity requirements which they
             should have known.

             The City entered accurate project completion data into the information system.




                                              8
Recommendations



          We recommend that the Director of HUD’s Jacksonville Office of Community
          Planning and Development

          1A.     Require the City to reduce the commitments in the information system to
                  the amounts supported by written agreements.

          1B.     Recapture $407,006, which the City did not commit by the 24-month
                  statutory deadline date.

          1C.     Require the City to reimburse its HOME account from non-Federal
                  funds $18,248 for ineligible costs spent for terminated activity number
                  984.

          1D.     Require the City to establish and implement controls and procedures to
                  ensure compliance with requirements for commitments entered into the
                  information system. This includes but is not limited to controls and
                  procedures to ensure dated signatures on all written agreements, valid and
                  adequately supported commitment entries, and the elimination of
                  duplicate commitment entries.

          1E.     Require the City to train its managers and staff regarding HUD’s
                  documentation and entry requirements for commitments entered into the
                  information system.

          We recommend that the Associate General Counsel for Program Enforcement

          1F.     Pursue civil or other appropriate administrative action against the City
                  for the invalid and inadequately supported commitment entries which its
                  staff made to the information system.




                                          9
                        SCOPE AND METHODOLOGY

We performed the audit from November 2011 through February 2012 at the City’s Housing and
Community Development Department and the HUD Office of Community Planning and
Development in Jacksonville, FL.

We did not review and assess general and application controls for computer-processed data that
the City entered into HUD’s information system for commitments. We conducted other tests and
procedures to ensure the integrity of computer-processed commitments that were relevant to the
audit objective. Specifically, we examined written agreements to determine the accuracy of
commitments that the City entered into the information system. We identified many instances,
discussed in the finding, in which the City entered invalid and inadequately supported
commitments into the information system. Audit results apply only to items selected and cannot
be projected to the universe or population.

The review generally covered the period November 1, 2009, through October 31, 2011. We
adjusted the review period when necessary. To accomplish our objective, we

       Researched HUD handbooks, the Code of Federal Regulations, and other requirements
       and directives that govern the commitment of HOME program funds.

       Obtained and reviewed reports from HUD’s information system and reviewed HUD’s
       monitoring files and consolidated annual performance and evaluation reports for the
       City’s HOME program.

       Reviewed the City’s procedures and controls used to administer its HOME program
       activities relative to commitments and interviewed officials of the Jacksonville HUD
       Office of Community Planning and Development and the City.

       Obtained and reviewed the City’s audited financial statements, project files, policies, and
       procedures relative to the commitment of HOME funds.

       Conducted tests to determine the City’s compliance with HOME fund commitment
       requirements. During the review period, November 1, 2009, through October 31, 2011,
       the City committed more than $2.3 million in HOME funds, of which we examined more
       than $1.4 million, or 61 percent of the commitments. The sample included 21
       commitments for all activities with funding that equaled or exceeded $40,000, all
       commitments that were made within 30 days of the City’s statutory 24-month
       commitment deadline, October 31, 2011, and three duplicate commitment entries.

       Conducted site inspections of 23 activities to determine whether they were complete or
       adequately progressing toward completion and to verify the accuracy of completion
       information that the City entered into the information system. We selected the sample
       from a universe of 281 completed and open activities shown in the information system
       for the period April 1999 through November 2011. We selected individual activities

                                               10
       based on various factors which included but were not limited to funding amounts, activity
       types, and activities that remained open for an extended period without completion.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.




                                               11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to:

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Policies and procedures that management has implemented to reasonably
                      ensure that resource uses are consistent with laws and regulations.

                      Policies and procedures that management has implemented to reasonably
                      ensure that resources are safeguarded against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                      The City did not have adequate controls in place to ensure that only valid
                      and adequately supported commitments were entered into the information
                      system and that the program was not charged for a terminated activity (see
                      finding).

                                                 12
                                   APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                                                           Funds to be
                 Recommendation                            put to better
                     number             Ineligible 1/         use 2/
                       1B                                   $407,006
                       1C                 $18,248



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if our recommendation is implemented,
     HUD will recapture $407,006 in funds not committed by the 24-month statutory
     commitment deadline.


.




                                            13
Appendix B

    AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         14
15
Comment 1




Comment 2




Comment 3




            16
Comment 4




            17
                          OIG Evaluation of Auditee Comments

Comment 1    The City commented that the invalid commitments questioned by the audit
             ($407,000) includes $195,000 ($105,000 and $90,000) which were valid and
             supported as required by the regulations at 24 CFR 92.2. We acknowledge that
             the HOME Mortgage Agreements mentioned in the City’s comments were signed
             by the homeowners and notarized before October 31, 2011, but they were not
             signed by the City. We also acknowledge that the homeowners signed
             Promissory Notes which referred back to the Mortgages, but the Notes did not
             require the signature of a City official. Furthermore, the Authorizations to expend
             funds, though necessary for the City to approve program expenditures, were not
             legally binding agreements for commitments. Thus, the cited Mortgages,
             Promissory Notes, and Authorizations for expenditures did not meet the definition
             of commitments pursuant to the regulations at 24 CFR 92.2. As stated in the
             report, the $195,000 were not valid commitments.

Comment 2    The City commented that the OIG developed a different interpretation of the
             commitment requirement cited at 24 CFR 92.2 based on HUD Community
             Planning and Development Notice 7-06. We disagree. The OIG presented and
             applied the commitment requirement based on provisions of the statute,
             regulations, and the cited Notice. The statute and the regulations defined
             commitments in the context of written legally binding agreements that must be
             executed before a participating jurisdiction’s commitment deadline. Thus, the
             need for the signatures on written agreements to be dated was already implied by
             the statute and the regulations. HUD Notice 7-06 only clarified existing
             requirements and addressed, among other clarifications, the need for participating
             jurisdictions to ensure that all signatures on written agreements are dated.

Comment 3    The City incorrectly claimed that it maintained proper support for $299,000 in
             commitments which the OIG concluded were not supported by written
             agreements with dated signatures to allow a determination as to when the
             commitments were made. At our request, the City provided and we assessed
             supplemental documentation in an effort to determine whether the commitments
             were made before the commitment deadline. We also provided the
             documentation to HUD’s Jacksonville Office of Community Planning and
             development officials who reviewed and accepted the supplemental
             documentation as adequate to support that the agreements were executed before
             the commitment deadline. We agreed with that determination. However, the
             acceptance of the supplemental documentation was not a substitute for
             compliance with the requirements that signatures on written agreements be dated
             to document and support when the commitments were made.

Comment 4 The City commented that it routinely sends its Housing staff to trainings. This
          statement was not consistent with our determination that City staff who entered
          the questioned commitments into HUD’s information system did so without
          having received adequate instructions and training needed to perform that
          function.

                                             18
